                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF MVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

                                                                                    11          Page 1 of 1



                  NSF OIG received an allegation against a PI' and C O - P I ~ alleging plagiarism of material
          from a published paper within one unfunded NSF proposal.3 OIG conducted an inquiry and,
          since the evidence warranted an investigation, referred the matter to the university4 for
          investigation. The Investigation Committee concluded, based on a preponderance of evidence,
          that the co-PI was unaware of the plagiarism, but that the PI knowingly plagiarized, and that the
          PI'S action was a significant departure from accepted practices. The PI resigned.

                  OIG further investigated the matter and found plagiarized material from 11 sources in
          five proposals the PI submitted to NSF.' OIG concurred with the University assessment, and
          recommended: 1) making a finding of research misconduct; 2) sending the PI a letter of
          reprimand; 3) requiring certifications for a period of 3 years; 4) requiring assurances for a period
          of 3 years; and 5) requiring completion of an ethics course. The Deputy Director accepted our
          recommendations.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter constitute
          the case closeout. Accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
                                      Executive Summarv
Allegation:      Plagiarism of material from a published paper within one unhnded NSF proposal.
OIG
Inquiry:         Subjects (PI and co-PI) submitted one NSF proposal containing approximately 73
                 lines of apparently copied text and one figure from one source.
University
Investigation
and Action:      Investigation Committee concluded, based on a preponderance of evidence, that
                 the PI knowingly plagiarized, actions deemed a significant departure from
                 accepted practices.
                 Investigation Committee concluded, based on a preponderance of evidence, that
                 the co-PI was unaware of the plagiarism.
                 Investigation Committee recommended: 1) a letter of concern be sent to the co-PI;
                 2) the PI not be reappointed to his current position; and 3) the University educate
                 researchers and students about research ethics and misconduct.
                 A settlement agreement was signed on April 2,2007, and the PI resigned effective
                 May 19,2008.
OIG
Investigation:   OIG found the PI plagiarized a total of approximately 129 unique lines, 2 unique
                 figures and captions, and 18 unique embedded references from 11 sources in five
                 proposals he submitted.
OIG
Assessment:      OIG concurs with the University assessment.
                          The Act: The PI plagiarized material.
                          Intent: The PI acted knowingly.
                          Standard of Proof: A preponderance of evidence supports the
                          conclusion that the PI plagiarized material.
                          Significant Departure: The PI'S plagiarism represents a significant
                          departure from accepted practices.
                          Pattern: The PI plagiarized material in multiple proposals,
                          establishing pattern.
OIG Recommends:
                            Make a finding of research misconduct against the PI.
                            Send the PI a letter of reprimand.
                            Require certifications from PI for a period of 3 years.
                            Require assurances on PI'S proposals for a period of 3 years.
                            Require completion of an ethics course and provide documentation of
                            its completion to OIG upon completion.
         The National Science Foundation (NSF) Office of Inspector General (OIG) conducted an
inquiry into an allegation that the Subjects (PI' and co- PI^) submitted an NSF proposal3that
contained plagiarized text. Initial analysis indicated that 73 lines of text and one figure were
apparently copied with inadequate citation from one s ~ u r c e .OIG
                                                                  ~ wrote to the Subjects
individually, asking them to respond to the allegations5 We received a Joint response to our inquiry
letter, in which they explained, "We have checked all our records and files related to this proposal
and found that the version we uploaded to FastLane was, in fact, a draft not intended for submission
but which got submitted due to a technical rni~take."~   They wrote:

        The 3-page section you are referrin to was a art of the background of our
        proposal. Since none of us is a                         we certainly used the most
        relevant sections of one of the best and comprehensive review paper in our draft
        because of the s p e c i f i c t e r m i r i o l o g y we are not experienced in
        but which is necessary to substantiate our own research. Since this was only a
        draft, we did not provide comprehensive referencing to this review paper because
        at that time we were not sure which passages and paragraphs should be included
        into the final version if any at all. Indeed, eventually, only a few statements from
        this paper (with proper referencing) were retained in the final version we are
        revising now to resubmit in July. However, it appears now that in the process of
        compilation of the final version you are referring to we mistakenly inserted this
        draft section in the file intended for the submission.'

       We were not persuaded that the Subjects adequately explained their actions, concluded there
was sufficient evidence to proceed to investigation, and referred the matter to their university.'

                                                Universitv Inquiry

       Per University policy,gthe University conducted an Inquiry. As part of the Inquiry, the
University secured electronic files; the Subjects were asked to provide other relevant material; and
the Subjects were invited to respond to the allegations.I0

       The Subjects responded individuallyto the Inquiry Committee. The co-PI said her
involvement was limited: "I personally did not copy any materials into this proposal, I was not aware




declined.
 Tab B.                                                                                           Subsequent analysis
(Tab N) indicated that 21 embedded references (references found within the copied text) and one additional figure were
copied from this same source.
 Tab C.
 Tab D.
'Tab D.
                         Tab E contains the Referral Letter.
 Tab F.
of any copying, and I have no expertise in this research area for me to be able to recognize copied or
improperly cited text.';" She said NSF's letter about the allegation was a surprise:

         I have no explanation on how these sections have appeared in this form in the
         proposal, other than the explanation that [the PI] has provided to me when we
         received the NSF letter (dated June 21,2006). I was shocked to receive such a
         letter, and immediately went to [the PI] asking how this may have happened. He
         responded by telling me that it was a technical error. Because I had no reasons not
         to believe him, I agreed to write and sign a joint response (the one that was sent to
         NSF on July 8, 2006).12

        In his response, the PI assumed responsibility for the portion of the proposal containing the
alleged plagiarism, stating, "The section of background was solely my r e ~ ~ o n s i b i l i t ~He
                                                                                                  ."'~
attributed the "accidental upload of the draft to ~ a s t ~ a n eto" 'the
                                                                       ~ following factors:

                    "insufficient experience as a PI in preparation of large collaborative proposals;"
                    "technical problems with my personal laptop;"
                    "the FastLane system has several technical drawbacks;"
                    "my son has severe allergies;" and
                    "I myself had flu.'"'

       The PI said that "as evident from the files of the draft, the final version, and the revised
version, all original data by other authors were properly referenced not only in this section, but also
throughout the whole proposal."'6 The Committee, however, was not persuaded.

        The PI further explained that the apparently copied text was in the proposal's background
section and that the research and experimental design were original.I7He apologized to NSF and the
University "for my insufficient control during the proposal preparation and submission that resulted
in the problem. . . . Surely, I do and will take every effort to avoid in the hture any errors alike."

        'The Inquiry Committee concluded that "there is sufficient evidence of misconduct to warrant
further in~esti~ations"'~
                        and an Investigation Committee (Committee) was convened.

                                            Universitv Investigation

      The Committee completed its investigation and provided OIG with a "Re ort on a Research
                                        ) ~ 'documents related to the investigation.I !
Misconduct Investigation" ( ~ e ~ o r tand

' ' Tab G2, pg 1.
I*  Tab G2, pg 2.
I'  Tab G2, pg 2. (Page numbers correspond to page numbers inserted in the Subject's response.)
l 4 Tab G2, pg 2.
I S Tab G2, pg 2-3.
l6 Tab G2, pg 4.
I' Tab 0 2 , pg 5.
l 8 Tab G2, pg 7.
l 9 ~ a H.
         b
20 Tab I.
        The Committee considered the allegations against the Subjects separately.22 The Committee
examined materials OIG                 the Subjects' resubmitted NSF proposal,24and materials from a
similar allegation an international science foundation (ISF) raised against the PI.^^

        The Committee conducted separate interviews with the PI and C O - P I . ~ ~During her interviews,
the co-PI said she contributed only the data analysis and that "she wrote her sections, pasted it in the
drafi sent to her by [the PI] and sent it back."27 She said that writing the proposal "was a
methodological development, not a mad               and that she tried to check the complete proposal,
but "there are limits in collab~ration."~~  She said "she became aware that the text was similar after
being notified by NSF"~' OIG. When she then asked the PI about the allegation, he replied that it
was a "technical glitch" without hrther e ~ ~ l a n a t i o nThe
                                                             . ~ ' co-PI said "she did more careful proof
reading and paid more attention" to the resubmitted version of the proposal, "especially the marked
red areas from the [previous] proposal."32

        In his interview, the PI said he was solely responsible for the section containing the alleged
plagiarism. He said "he used some relevant parts from the [source] article for background or general
information not related to his original hypothesis."33"He knew he was putting in the information;"
however, he said "it was cited and acknowledged" on a figure in the proposal.34 The PI repeatedly
stated that there is a significant difference between "one citation and no citation"35and between
"stolen ideas and insufficient citations of others' words."36




21
     Tab (31-6.
22   Tab I, pg 2.


withdrawn.




letter and responded on September 6,2006, that the University would respond appropriately.
26Tab G4 contains interview notes; transcripts of the interviews were not produced. The quotes attributed to the Subiects
are therefore not necessarily their own words, but the words as captured in the interview nbtes. In addition, notes were
not included from the Co-PI'S third interview.
               told OIG that the co-PI requested that interview to clarify her position.

28 Tab G4, pg 8.
29 Tab G4, pg 18.
30 Tab G4, pg 9.
31
   Tab G4, pg 9.
32 Tab G4, pg 20.
33
   Tab G4, pg 1.
34
   Tab G4, pg 1. The reference was cited on page 1 of the proposal in the caption for Figure 1 . Although the PI made a
similar claimregarding the apparent copied text in the ISF proposal, he said that for the ISF proposal, "He typed in the
material, this was not a mistake, it was sent by mail" (Tab G4, pg 4).
3S Tab G4, pg 1.
36 Tab G4, pg 7.
       The PI said he realized he uploaded the wrong version of the proposal when he received
OIG's initial letter. However, he did not have "a copy of the final version because it has been
reworked ."37

        The Committee noted that the PI provided different explanations for plagiarism of nearly
identical text to NSF and the ISF. Specifically, while he told NSF it was a "technical error," he told
the ISF that "inappropriate citation is not absent ~itation."~'
                                                              The Committee also noted the NSF
proposal appeared "pretty polished" and that the version ostensibly "submitted by mistake"
contained almost all of the same plagiarized text as the earlier proposal submitted to the ISF. Lastly,
the Committee noted that only the order of references was different in the source text and the


      Based on a preponderance of the evidence, the Committee concluded that the co-PI "did not
commit plagiarism" since "she was unaware of the plagiarism being committed by her
co~laborator,"~~
               the PI. The Committee recommended that a letter of concern be sent to her,4'

         calling attention to her poor judgment in allowing the [date] NSF resubmission to
         go forward without assuring for herself that the passages in question, revised by
         [the PI], had been sufficiently distilled so as to represent the Principal
         Investigator's own presentation format, and with appropriate attribution made.42

        Conversely, the Committee found that "a preponderance of the evidence proves that [the PI]
committed plagiarism."43The Committee wrote that the PI'S submission of a nearly identical
proposal to the ISF contradicted his claim that the apparently copied text was due to "carelessness
and work pressure" leading to uploading "a 'wrong version' of the proposal file by accident."44They
also wrote that the PI could not "produce evidence that another version of the introductory text
existed prior to the modification that occurred for the [date] resubmission of the proposal to I\~sF."~'.

        The Committee concluded that "copying text in this fashion without attribution is a
significant deviation from the standard practices of the university/scholarly community and
university policy."46The Committee found that the PI "committed the plagiarism knowingly,with the
          f
intent to ive the wrong impression as to the originality of the text and the expertise of the proposal
authors."




37  Tab G4, pg 3.
    Tab G4, pg 16.
    Tab G4, pg 4.
40 Tab I, pg 4.
4 ' Tab G5, pg 3.
42 Tab I, pg 6.
43
    Tab I, pg 2.
44 Tab 1, pg 3.
45 Tab I, pg 3.
46 Tab I, pg 2.
47 Tab I, pg 3.
                                                                               B'
        The Committee hrther concluded that the PI'S actions constituted "a ractice of copying
boilerplate language without regard for proper acknowledgment of sources." From the PI'S nearly
identical ISF proposal and from his resubmitted NSF proposal containing "paraphrasing of [the
source] text that hewed too closely to the original text and again without appropriate attribution," the
Committee determined the PI'S actions constituted a pattern of beha~ior.~'

        Lastly, the Committee wrote that the PI'S "actions have had a significant impact on [the co-
PI]'s career and reputation," a possible impact on the author of the source text, and "call into
question the reputation of [the] ~niversity."~'

       The Committee recommended the PI not be reappointed to his current position5' and
informed the PI that the University was considering formal sanctions or an informal reso~ution.~~

        Generally, the Committee recommended the University "be more proactive and raise
awareness about research ethics and misconduct issues."53 Specific recommendations included
investing in plagiarism detection software, mandatory participation by researchers and students in a
seminar on ethics and academic standards, and emphasizing integrity and quality for proposals
requesting

                                               University Adiud ication

       The PI and the University signed a settlement agreement.55Per the agreement, the PI resigned
from the University effective May 19,2008,'~agreed not to submit grant proposals during his
remaining time at the University, and was assigned a limited work load.57

                                                   OIG Investigation

       OIG has reviewed the committee's Report and found their investigation to be fair and
accurate. Because the Committee did not adequately assess pattern as a part of its investigation, OIG
informed the PI that we initiated our own investigation to assess pattern. 58

        Our office reexamined the original annotated proposal and four other proposals submitted by
the PI, including the resubmitted version of the initial proposal.59These proposals constitute all the

48   Tab I, pg 4.
49   Tab I, pg 4.
     Tab I, pg 4.
     Tab I, pg 6.
 52
     Tab G5, pg 1.
  53 Tab I, pg 7.
 54 Tab I, pg 7.
 55 Tab J.
, 56 Tab G6, pg 1. Tab K contains the letter of resignation.

 57 Tab G6, pa 1.
       proposals the PI submitted to NSF. Every proposal contained apparently copied text, figures, and/or
       embedded references. The apparently copied text came from a total of 11 sources.60The following
       chart illustrates the numbers of apparently copied identical lines of text, paraphrased lines of text:'
       figures, and embedded references from each proposal. (Note that the text copied from each source is
       identical between proposals, meaning the PI plagiarized a total of approximately 129 unique lines, 2
       unique figures and captions, and 18 unique embedded references from 11 sources in five proposals
       he submitted.):
                                                                                                                              -    -


                                                                                                                  Total
Source        Proposal              Proposal B~~      Proposal c~~Proposal D~~            Proposal E~~            (Unique)
                                                                                 5 lines;                                 80 lines;
                        80 lines;            1 line;               10   23 paraphrased     49 paraphrased;               1 figure+
                       1 figure+    18 paraphrased     paraphrased                 lines;  1 figure+caption               caption;
                        caption;              lines;           lines; 1 figure+caption;              3 lines;        17.embedded
                   17 embedded         2 embedded      2 em bedded         8 embedded          13 embedded              references
A                     references         references 1     references         references           references
 B             1 figure+caption                                                            1 figure+caption        1 figure+caption
                                            3 lines;         2 lines;                                                        3 lines;
                                       1 embedded       1 embedded                                                      1 embedded
C                                         reference        reference                                                       reference
D                                            8 lines                                                                           8 lines
E                                          8.5 lines        8.5 lines          8.5 lines                                    8.5 lines
F                                           9 lines           7 lines                                                         9 lines
G                                           4 lines           4 lines                                                         4 lines
H                                           6 lines          6 lines                                                          6 lines
I                                         5.5 lines        5.5 lines                                                       5.5 lines
J                                                                                3 lines             3 lines                  3 lines
 K
 - -                                                                           1.5 lines                                    1.5 lines
                                                                                                                           129 lines;
                                                                                                                          2 figurest-
                                                                                                                           captions;
                                                                                                                       18 embedded
                                                                                                                          references


       OIG sent the PI the annotated proposals and source documents and asked him to explain the identical
       or nearly identical material.67 In his written response,68the Subject said he "came to the conclusion



       "" Tab N9, A-K.
       61
            Paraphrased lines were counted because they closely paraphrased t h e a r t i c l e after the PI knew about the




            Tab 0 .
that [he] did not understand what plagiarism is and how it is interpreted."69He said he "understood
that referring to an original source is sufficient to give appropriate creditYv7O
                                                                                attributing the majority
of the plagiarism OIG identified to this misunderstanding.

         Other explanations the Subject provided included "the constraints of scientific terminology"
or use of "commonly used phrases;" verbal permission from a collaborator; use of an Open Access
article; and use of a common general d e ~ c r i ~ t i o nThe
                                                           . ~ ' Subject asked OIG to consider that he
withdrew two proposals72before they were sent for external review; that the plagiarism was in the
background sections; that the hypotheses and data were original; and that he was repentant.

        In considering the PI'S response, OIG found that, although the PI did often cite sources for
allegedly plagiarized text at the end of passages, he used extensive identical language from the
source text without identifying it as direct quotation.

        In addition, OIG found that, while the examples the PI provided for other sources containing
identical text did contain the same concept, the language these other sources used was not in fact
identical to that of the alleged source text.73

       The PI also said he had verbal permission from the author of two of the source texts,74since
they were collaborators, but he provided no evidence; nor would permission to copy the 15 lines
from these sources exonerate his more extensive pattern of plagiarism.

        Lastly, the PI selected collocations of words that OIG annotated and used search engines to
provide evidence that these constitute commonly used hrases. For exam le, the PI found numerous
hits for terms he searched from Source c~~    such as                          and-'
W h i l e these phrases are indeed c o r n m o n , ~ s t r i n g instwo
independently produced texts is uncommon.76 For
                    le Books for the complete string
                   the only hit was the article that OIG identified as the source text.

            Thus, the PI did not rebut the evidence that he committed plagiarism.

                                               OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be



69   Tab 0 , pg 1 .
70   Tab 0, DE 2.



74 Tabs N9, E and H.
75 Tab N9, C.
76 See Olsson, John. (2004). "Chapter 8 - Detecting Plagiarism." Forensic Linguistics: An Introduction to Language,
Crime and the Law. London: Continuum. 109-118. (Tab P).
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence.77
                                                The Acts
       The PI plagiarized 73 lines of text, including embedded references, and figures in one
proposal. Both the PI and the co-PI said that the PI was responsible for the portion of the proposal
containing the alleged plagiarism, and the PI said he had copied the text into the proposal.

       The Committee concluded that "the failure to call attention to the use of such a large amount
of copied text and failure to provide appropriate attribution is not common practice and cannot be
condoned."78 We concur with the Committee.

        Subsequent OIG examination found that the PI plagiarized a total of approximately 129
unique lines, 2 unique figures and captions, and 18 unique embedded references from 11 sources in
the five NSF proposals he has submitted. Again, the PI did not provide an adequate explanation.

        OIG concluded that the PI departed from the accepted standards of the research community
in offering text written by others as his own words, and in providing those words as emblematic of
his own understanding of the research field. Similarly, by including the embedded references from
source texts, the PI not only adopted research undertaken by others as his own effort, but
misrepresented his own body of knowledge.

        Our examination thus provided further evidence that the PI plagiarized text and figures, and
that his actions are a significant departure from accepted practices.

                                                Intent
        The Committee found the PI acted knowingly because the PI both included identical
plagiarized text in his ISF proposal and because he originally provided OIG and the co-PI with an
inaccurate explanation for the plagiarism. The Committee concluded that the PI

           deliberately typed and sent material that he himself had keyed into the
           introduction of his NSF proposal. That the text of the introduction to the [ISF]
           proposal, some three months earlier, had virtually the same wording, sentence
           structure, and paragraph structure, combined with the lack of an alternative file
           version, proves intent to submit the work of others without proper a t t r i b ~ t i o n . ~ ~

We concur with the Committee that the PI'S actions were knowing.

        OIG's subsequent examination of the PI'S other proposals found the PI'S intent hrther
demonstrated in the extent of his plagiarism among five proposals. OIG concluded that the PI'S
actions were knowing.




77   45 C.F.R. §689.2(c).
78   Tab 1, pg 2.
79
     Tab I, pg 3.
                                           Standard o f Proof
        The Committee found by a preponderance of evidence, such as the PI'S own admission of
guilt and the PI'S inability to produce evidence of previous versions of the NSF proposal, that the
PI'S actions constituted plagiarism.

      We concur with the Committee that the PI'S actions and intent were proven based on a
preponderance of evidence.

       IVSF OIG concludes that a preponderance of evidence proves that the PI knowingly
plagiarized, thereby committing an act of research m i s c o n d u ~ t . ~ ~

                                    OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

          (1) How serious the misconduct was; (2) The degree to which the misconduct
          was knowing, intentional, or recltless; (3) Whether it was an isolated event or
          part of a pattern; (4) Whether it had a significant impact on the research
          record, research subjects, other researchers, institutions or the public welfare;
          and (5) Other relevant circurnstan~es.~'

                                          Seriousness
        The PI'S actions are an egregious violation of the standards of scholarship, and of the
fundamental tenets of research ethics. First, the extent of the plagiarism is in itself serious. All five
of the proposals the PI has submitted to NSF-four of which were submitted after the PI was
informed by OIG of the initial allegation-have contained plagiarism.

        Second, the PI'S actions affected not only the PI, but also the co-PI, who, based on statements
from the PI, provided OIG with an inaccurate explanation for the allegation. Although cleared of
wrongdoing by her University, the co-PI'S research and integrity were drawn into question by the
PI'S actions.

        Lastly, as the Committee wrote, "There is some question as to whether [the PI] hlly
understands the concept of verbatim plagiarism and its seri~usness."'~    The PI'S statements to OIG,
the University, and the ISF clearly indicate he did not and still does not understand what constitutes
plagiarism. For example, during the PI'S interview, he maintained that "[ilnsufficient citation is very
different from absence of citation. . . . There is no measure of what is appropriate (citation), all
interpret it in their own way."83 The PI'S statements indicate that even after the University's
investigation, he does not filly comprehend the meaning of plagiarism.



  45 C.F.R. part 689.
" 45 C.F.R. 5 689.3(b).
" Tab   I, pg 3.
" Tab   G4, pg 4.
                           Degree to which the Action was Knowing
        The act of plagiarism is generally an act done knowingly. In this case, in submitting the
original NSF proposal, the PI clearly knew (and admitted) he had included text in his proposal
without attribution. He then deliberately had his co-PI provide an inaccurate response to us when we
conducted our inquiry. Furthermore, even after receiving the initial inquiry letter from NSF, the PI
continued to submit proposals containing plagiarized text. In so doing, the PI violated several tenets
of the research community including his own University's policy.

                                                Pattern
       The PI plagiarized material in all five proposals he submitted to NSF, most of which were
submitted after he was informed of the initial allegation. In addition, the PI plagiarized text in a
proposal he sent to the ISF. A pattern of behavior is therefore clearly evident.

                                         Aggravating Factor
        The PI'S behavior during the inquiry and investigation is an aggravating factor. For example,
rather than immediately taking responsibility for the plagiarized portion of the proposal, the PI
provided his co-PI with an inaccurate explanation of the plagiarism that she then provided on their
behalf to OIG's inquiry. This behavior is disturbing in its blatant violation of the relationship and
trust between PI and co-PI.

                                          Mitigating Factor
        The PI resigned from the University and agreed to not submit any proposals, including to
federal agencies, for his remaining year at the University.

                                   Impact on the research record
       The NSF proposals containing plagiarism were either declined for funding or withdrawn. No
impact on the research record therefore occurred.

                                                   Recommendation

Based on the evidence, OIG recommends that NSF:

                    send a letter of reprimand to the PI informing him that NSF has made a finding of
                    research m i s c o n d ~ c t ; ~ ~

                    require the PI to certify to the Associate Inspector General for Investigations (AIGI)
                    that proposals or reports he submits to NSF do not contain plagiarized, falsified, or
                    fabricated material for 3 years;85

                    require that the PI submit assurances by a responsible official of his employer to the

                    plagiarized, falsified, or fabricated material for 3 years; k
                    AIGI that any proposals or reports submitted by the sub'ect to NSF do not contain



84   A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(l)(i)).
     Certification by an individual is authorized in 45 C.F.R. §689.3(a).
86
     Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).
require the PI to complete an ethics course and provide documentation of its
completion to the AIGI upon completion.
                                             .    .


                                            NATIONALSCIENCE FOUNDAION                                     .
                                                  4201 WILSON BOULEVARD                       .
                 .    .                          ARLINGTON, VIRGINIA -30                  -       '   .   '




     OFFICE OF ME
    DEPUTY DIRECTOR       .   '                                                                                               .       .


                                      . .                                                                                                     .       .
                                                                                                              .   .
                                                                                                                      ,   .


CERTIFIED MAIL -RETURN
                  .
                       RECEIPT REO,SJESTED
                                      , .                                .




       Re:    Notice of ~esearck is conduct ~eterminabon
                                                                     .        .
                                                                                                                                              .   .


J 3 e a r ~ r . D         .       .   .                                  ..       .   .


      From 2006 - 2007. vou submitted five ~roposalstothe ~ationalScience Foundation




Report prepared by NSF's Office of Inspector General ("OIG"), these proposals contained
plagiarized text.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,

derlnes "piagiarisrn"
                 S    *
                                     . . research fUnded by NSF ..." 45 CFR 9 689,1(a). NSF
or plagiarism in proposing or performing

without giving appropriate credit." 45 CFR $ 689.1(a)(3). A finding of research misconduct
requires that:
       (1) There be a significant departure from accepted practices of the relevant research                                                              .

           community; and
       (2) The research misc6nductbe committed intentionally, or knowingly,or recklessly; and
                                                                                                                                  .       .
       (3) The allegation be proven by apreponderance of evidence.

45 CFR $689.2(c).

       Your proposals contained verbatim and paraphrased text and graphical figures from
several source documents. By submitting proposals to NSF that copy the ideas or words of
another without adequate attribution, as described in the OIG Investigative Report, you
misrepresented someone else's work as your own. In addition, you failed to properly
acknowledge or credit the authors of the source documents in his proposals. Your conduct
unquestionably constitutes plagiarism. I therefore conclude that you. actions meet the definition
of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR 5 68-9.2(c). After
reviewing the Investigative Report and the University Committee Report, NSF has determined
that, based on a preponderance of the evidence, your plagiarism was committed lcnowingly and
constituted a significant departure from accepted practices of the relevant research community. I
am, therefore, issuing a finding of research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, 11, and III)that can be
taken in response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities firom NSF; and requiring that an institutional representative certifj. as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR 9 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR $689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension fkom participation in NSF programs. 45 CFR 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our determination that it was knowing, as well as
our determination that it was a part of a pattern of plagiarism. I have also considered the fact that
your misconduct did not have a significant impact on the research record, as well as the
contrition that you demonstrated during the investigative process. I have also considered other
relevant circumstances. 45 CFR 689.3 (b).
      .   .                                                                    .    .

        In light of the foregoing, .Iam requiring that,.fiom the date of this letteruntil April 1, . .
                                                                                                   '



201 1,you certify that any proposal you submit as aprimipal investigator or co-principal             . .
investigator doesmtcmV Z i e d , or fabricated material. In addition, for this                         '       .   .   '   .'
same time period, an official of your employer must providewritten assurance that any proposal
you submit as a principal investigator or co-principal investigator does not contain any
plagiarized, falsified or fabricated information, Lastly, by January 1,2009, you must certify that
you attended a course on research ethics and plagiar'isrn, and provide docurnentationto prove :.
your attendance at that course. Such certificzki'onsand a&urances should be submitted in writing
to the officeof Inspector'General,Associate Inspector General for Investigations, 4201 Wilson :
                                                                                                   .       ,
Boulevard, Arlington, Virginia 22230.
            Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
    of this decision, in writing, to the Director of the Foundation. 45 CFR 8 689.1 O(a). Any appeal
    should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
    Arlington, Virginia 22230. If we do not receive your appeal within the 30day period, this
    decision will become final.

           For your information, we are attaching a copy of the applicable regulations. If you have
    any questions about the foregoing, please call             Assistant General Counsel, at (703)
    292-8060.



                                                           Sincerely,


                                                   .   .                                          .       .
                                                           Kathie L.,Olsen       .        ,   '   '
                                                                                                      .       .           .   .

                           ,   .               .   .
                                                           Deputy Director   '       '-
                                                                                                                  .   .




    Enclosures, .
    - Investigative .Report
                      '




.

    - 45 C.F.R; Part689
